                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

  Case Number: Al1040033                                                                         Page 1 of 1



                   NSF 010 received an allegation of plagiarism in an NSF proposal. 1 A review of the
           proposal showed that there were a few blocks of copied text. 010 contacted the subjects to
           request an explanation. Their responses showed that no substantive block of plagiarized text was
           attributable to one particular PI and that the four PIs all had some input to the proposal. Also, the
           largest block of copied text was preceded by a sentence giving credit to the author and source
           document. Each PI was sent a Questionable Practice Letter and this case is closed.




NS F OIG Form 2 (11102)
